          Office of Inspector General




September 22, 2006

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Strategic Alignment of Engineering Programs
         (Report Number DA-AR-06-005)

This report presents the results of our self-initiated audit of the strategic alignment of
engineering programs (Project Number 05XG018DA000). Our overall objective was to
assess whether Engineering’s programs aligned with its functional mission and the U.S.
Postal Service’s transformation strategy and goals.

                                        Background
In 1949, the Post Office Department was authorized to establish a research and
development office responsible for improving existing equipment, supplies, methods,
procedures, means, and devices, and for introducing new types of equipment.
Subsequently, these responsibilities were incorporated into 39 U.S.C. Since that time,
legislative and regulatory events have changed the original purpose of Engineering.
The Postal Reorganization Act of 1970 provided that the Postal Service “will maintain an
efficient mail system nationwide” but omitted language that established Engineering’s
purpose. From 1989 until 2004, 39 C.F.R. incorporated language similar to that in the
1949 legislation. This language was not included in the current C.F.R.

At the time of the audit, the organizational structure of Engineering consisted of nine
functional areas reporting directly to the Vice President, as the chart below shows.
Strategic Alignment of Engineering Programs                                                            DA-AR-06-005




Each of the nine functional areas has separate responsibilities. Within these functional
areas, executives supervise program managers, who are responsible for projects
funded under 118 program finance numbers.

                            Objectives, Scope, and Methodology
Our overall objective was to assess whether Engineering’s programs aligned with its
functional mission and transformation strategy and goals. We evaluated the alignment
of programs to their assigned functional area, Engineering’s mission, and the
Transformation Plan, April 2002. As discussed with U.S. Postal Service Office of
Inspector General (OIG) counsel, the Engineering mission can be inferred — to keep
mail operations efficient. In the absence of a current legislative or regulatory purpose
for Engineering, we assessed program alignment to the inferred mission.

We surveyed 67 Engineering program managers and nine executives reporting directly
to the Vice President, Engineering, and conducted follow-up interviews as appropriate.
We used the Corporate Planning System (CPS)1 to extract relevant information for
118 Engineering program finance numbers.2 We analyzed the plan narrative3 for each
finance number and assessed program alignment. We excluded finance numbers
identified as inactive, having zero budgeted dollar value, or administrative.

We conducted this audit from November 2005 through September 2006 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. We did not
assess the alignment of specific program activities or test the completeness of
information in the CPS. However, we coordinated with Engineering’s budget
coordinator to validate the program finance numbers we reviewed.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.




1
  The CPS is a web-based application for input, storage, and retrieval of budget data in the field and at headquarters.
2
  Each finance number represents an allocation of funding for a program or a portion of a program.
3
  The narrative provides funding information, including a short description of the program that establishes the general
program parameters, and a link to the transformation strategy and goal (2002 edition). CPS plan narratives reference
the Transformation Plan, April 2002.



                                                          2
Strategic Alignment of Engineering Programs                                      DA-AR-06-005




                                               Audit Results
The Engineering programs we reviewed were aligned to the Transformation Plan,
with one exception. The vast majority of Engineering programs also aligned with
Engineering’s mission to maintain efficiency of mail operations, and to their assigned
functional areas. However, based on survey responses, Engineering management can
do more to clearly define and communicate Engineering’s purpose — which is a key to
maintaining alignment within the organization.

Alignment to Transformation Plan

As presented in Appendix A, 117 of the 118 programs4 reviewed were aligned to one of
three strategies of the Transformation Plan. Engineering programs primarily support the
2002 Transformation Plan strategies listed below:

      •    Enabling
      •    Foster growth through added value to customers
      •    Increase operational efficiency

The exception was the Emergency Preparedness Program (EPP) Intervention. The
EPP Intervention was identified as supporting the enabling strategy with a goal of
ensuring the safety, security, and privacy of the mail. The program uses high-energy
irradiation to sanitize mail destined for specific ZIP Codes; this mail is treated at a
contractor facility in New Jersey. However, according to the Transformation Plan,
ensuring safety and security of the mail encompasses the transformation substrategies
below:

      •    Prevent use of the mail to defraud consumers or convey dangerous mailings.
      •    Reduce theft of mail and other criminal attack on postal products, services, and
           assets.
      •    Ensure a safe, secure, and drug-free work environment.
      •    Ensure that the Postal Service maintains its trusted brand and provides top-rate
           privacy protection.

Our review of the transformation substrategies found a disconnection between the
purpose of the program and the Transformation Plan strategy and goal identified. The
description of the EPP Intervention appears to support ensuring safety of the mail, but
not as described in the transformation substrategies.

In addition to being misaligned to the Transformation Plan, the EPP Intervention did not
clearly align with its assigned functional area. EPP Intervention was assigned to the

4
    “Programs” refers to program finance numbers.




                                                     3
Strategic Alignment of Engineering Programs                                                           DA-AR-06-005



Material Handling group, which develops complex systems such as robotics; automated
processing systems for tray mail, sacks, and packages; and innovative and creative
solutions for large- and small-scale systems that include all Postal Service product lines.
However, the EPP Intervention is a post-development and deployment activity with the
purpose of sanitizing mail.

During our audit, we discussed the EPP Intervention program placement with Postal
Service officials. Although we made no recommendations, in March 2006, we were
informed that EPP had combined with the Environmental Policy group. This group was
subsequently consolidated with Safety, forming Safety and Environmental Performance
Management, a new headquarters function reporting to the Executive Vice President,
Human Resources. Since Engineering management has taken action on EPP
alignment, we are not making formal recommendations.

Program Alignment to Engineering Mission

We noted that programs for eight of nine functional areas generally aligned with or
supported Engineering’s mission of maintaining an efficient mail system.5 However,
we found that the broader compliance responsibilities of the Environmental
Management Policy group do not align with Engineering’s responsibility for maintaining
an efficient mail system. This group manages nine programs relating to environmental
policy, air, water, waste, pollution prevention, and energy conservation. We believe that
compliance activities are outside Engineering’s overall responsibility for maintaining an
efficient mail system.

During our audit, we discussed environmental organizational placement with Postal
Service officials. Although we made no recommendation to move the group, as
previously discussed, in March 2006, the Environmental Policy group was combined
with Safety to form the new Safety and Environmental Performance Management group
to make programs more effective. We recognize Engineering management’s attention
to the broader requirements of environmental compliance and are not making
recommendations at this time.

Program Alignment to Assigned Functional Areas

As noted in Appendix A, 114 of 118 programs aligned with their assigned functional
area’s stated responsibilities. Of the four programs that did not align, three are
maintenance programs. One program, the EPP Intervention program, was discussed in
the section on program alignment to the Transformation Plan.

5
  With the passage of the Postal Reorganization Act of 1970 (PRA), Section 504 carried over, but in very different
form, into Section 403 of the PRA. Section 403 provides that the Postal Service shall maintain an efficient mail
system nationwide. Neither it, nor another provision of the PRA, retained the old requirement to maintain a research
and development program. Thus, the current law is not useful in interpreting the role of Engineering for research and
development, except for making a broad argument that Engineering, as part of the Postal Service, is responsible for
keeping mail operations efficient.




                                                          4
Strategic Alignment of Engineering Programs                                    DA-AR-06-005




Our review identified three maintenance-related programs assigned to groups with
nonmaintenance functional missions. Two of the three maintenance programs were in
the Technology Acquisition Management area and had responsibilities for managing the
acquisition, testing and acceptance, deployment, and integration of new technology
systems to provide for increased efficiency in mail processing and distribution, delivery,
and mail protection operations. The two programs are:

•   Biohazard Detection System Logistics Support, finance number XXXXXX.
•   Biohazard Detection System Cartridges, finance number XXXXXX.

The third maintenance-related program below was assigned to the Delivery and Retail
function with responsibility for developing technologies that enhance the efficiencies for
corresponding operational areas.

•   Mobile Data Collection Device Support (MDCD), finance number XXXXXX (Retail
    and Delivery) – Extended maintenance service contract for existing equipment while
    transitioning to the new scanner system.

Normally, maintenance responsibility shifts to the Maintenance Policies and Programs
(MPP) group upon acceptance of equipment. Although equipment has been accepted
for these programs, maintenance responsibilities have not been transitioned to the MPP
group. We noted no duplication of effort on these programs. However, we believe the
MPP group may be in a better position to manage these programs.

Recommendation

We recommend the Vice President, Engineering:

    1. Review the noted maintenance programs and determine whether stronger
       alignment could be achieved if these programs were placed in Maintenance
       Policy and Programs.

Management’s Comments

Management agreed the recommended review is a valuable activity. As such,
management conducted a review and determined the noted programs are currently
positioned where they can best be managed. In addition, management will continue to
revisit the positioning of logistical support activity for the Biohazard Detection System
and have not ruled out a shift in the future. In the case of the MDCD service program,
management did not envision any future shift since the Postal Service would soon
transition to the Intelligent Mail Data Acquisition System. Management’s comments, in
their entirety, are included in Appendix B.




                                              5
Strategic Alignment of Engineering Programs                             DA-AR-06-005



Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation identified in the
finding.

Maintaining Alignment

Based on survey responses, we noted that Engineering management can do more to
clearly define and communicate Engineering’s mission. XXXXXXXXXXXXX XXXXXX
XXXXXXXXXXXXXXXX:

•   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXX:

    o XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXX.

    o XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX.

    o XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXX.

•   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXX:

    o XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXX.

    o XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX.



                                              6
Strategic Alignment of Engineering Programs                                 DA-AR-06-005




   o XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX.

Since Congress authorized the formation of Engineering, changes in legislation such as
the passage of the 1970 Postal Reorganization Act and other supporting legislation
have reduced Engineering’s purpose from specific language to more generic terms.
Both 39 U.S.C. and 39 C.F.R. have been changed and no longer reflect the purpose of
Engineering. Along with organizational and leadership changes, these factors have
contributed to inconsistencies in the understanding of Engineering’s mission.

A well-developed mission statement, communicated to and embraced by employees, is
fundamental to maintaining program alignment within Engineering. In particular it will
help ensure:

   •   Senior management clearly understands the business results to be achieved for
       a major investment, and Engineering's contribution to those results.

   •   Middle management understands the resources required to achieve these results
       and their role in achieving this goal.

   •   All employees and workgroups understand how they contribute to the results and
       how technologies developed will be used in new ways.

Recommendation

We recommend the Vice President, Engineering:

   2. Reestablish and effectively communicate a purpose and mission statement to
      maintain program alignment and enhance a shared vision of benefits.

Management’s Comments

Management agreed that maintaining alignment among Engineering’s programs with
overall corporate goals and strategies is important. However, they did not agree that
there is a need to reestablish an Engineering-specific purpose and mission as originally
established in legislation. Rather, management elected to publish an Engineering
technology plan in the near future to improve internal communications and ensure future
alignment to corporate mission and goals.

Evaluation of Management’s Comments




                                              7
Strategic Alignment of Engineering Programs                            DA-AR-06-005



Management’s comments are responsive to the recommendation and meet the intent of
the finding. Actions taken and planned would contribute to continued program
alignment and enhance a shared vision of benefits.




                                              8
Strategic Alignment of Engineering Programs                                DA-AR-06-005



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Linda A. Kingsley
    Deborah Giannoni-Jackson
    Steven R. Phelps




                                              9
            Strategic Alignment of Engineering Programs                                                       DA-AR-06-005




                                                      APPENDIX A. AREA OF ALIGNMENT



                                          Total           Aligned to               Aligned to               Aligned to                             Percent
                                        Number of         Functional              Engineering             Transformation               Total Not     Not
   Engineering Functional Area          Programs             Area      Percent      Mission     Percent        Plan          Percent    Aligned    Aligned
Administrative and Building Services        1                 1          100           1          100            1             100         0          0

Delivery and Retail                          9                8          89            9         100            9             100         0          0

Engineering Software Management              24              24         100           24         100           24             100         0          0

Environmental Management Policy              9                9         100            0          0             9             100         0          0

Maintenance Policies and Programs            10              10         100           10         100           10             100         0          0

Material Handling                            15              14          93           14          93           14              93         1          7

Technology Acquisition Management            32              30          94           32         100           32             100         0          0

Technology Development and                   9                9         100            9         100            9             100         0          0
Applications

Technology Planning and Analysis             9                9         100            9         100            9             100         0          0



Total Number of Program Finance             118              114                      108                      117                        1
Numbers

Percentage of Alignment to Assigned                                      97                       92                           99                    1
Finance Numbers




                                                                                 10
Strategic Alignment of Engineering Programs               DA-AR-06-005




                      APPENDIX B. MANAGEMENT’S COMMENTS




                                              11
Strategic Alignment of Engineering Programs        DA-AR-06-005




                                              12
